                                                           IG-00-035




AUDIT
                           CONTRACT SAFETY REQUIREMENTS AT KENNEDY
REPORT                                SPACE CENTER AND
                                MARSHALL SPACE FLIGHT CENTER

                                         June 5, 2000




                                 OFFICE OF INSPECTOR
                                 GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at (202)
358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the NASA
Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html



Acronyms

ASI             Agency Safety Initiative
DCMC                    Defense Contract Management Command
FACS            Financial and Contractual Status
FAR             Federal Acquisition Regulation
NHB             NASA Handbook
NPD             NASA Policy Directive
NPG             NASA Procedures and Guidelines
OSHA                    Occupational Safety and Health Administration
W                                                                                    June 5, 2000




TO:          A/Administrator

FROM:        W/Inspector General

SUBJECT: INFORMATION: Contract Safety Requirements at Kennedy Space Center and
         Marshall Space Flight Center
         Report Number IG-00-035


The NASA Office of Inspector General has completed an audit of Contract Safety
Requirements at Kennedy Space Center and Marshall Space Flight Center. We found that
NASA is taking action to ensure its contractor workforce is supportive of and accountable for
safety. Through the Risk Based Acquisition Management initiative,1 the Agency is revising, but
has not yet published, the updated NASA Federal Acquisition Regulation (FAR) Supplement to
ensure that risk is the core concern of all contracting actions except for the purchase of
commercial off-the-shelf items. Although the initiative is a positive step toward improving the
safety practices of NASA contractors, it does not apply to existing contracts. The audit did
identify that the Agency has not applied existing basic safety provisions such as required
contract safety clauses, contractor safety plans at contract award and Center safety office
involvement in the procurement process for 15 of 25 contracts that we reviewed at Kennedy
and Marshall. As a result, NASA contractors including some involved in hazardous operations
may not be supporting the same safety goals as NASA.

Background

Both NASA Handbook (NHB) 1700.1,2 “NASA Safety Policy and Requirements Document,”
June 1, 1993, and the NASA FAR Supplement have established NASA’s requirements
regarding safety with contractors. Chapter 2 of NASA Handbook 1700.1 requires that (1) the

1
  The Agency established Risk-Based Acquisition Management as a NASA procurement initiative in April
1999 to reduce the likelihood and severity of impact from unforeseen events through vigorous risk
management. A key element of the initiative includes revising the NASA Federal Acquisition Regulation
Supplement to incorporate risk management including safety and security considerations.
2
  On January 24, 2000, the Agency issued NASA Procedures and Guidelines 8715.3, “NASA Safety
Manual,” which replaced NHB 1700.1.
                                                                                                            2


Agency review all procurement documentation and actions for safety implications, (2)
contractors submit a safety plan as part of the contract, and (3) NASA conduct appropriate
surveillance of contractor safety operations. The NASA FAR Supplement requires that
contracts costing more than $1 million, construction contracts, or contracts involving hazardous
operations contain appropriate clauses related to safety.

Recommendations, Management's Response, and Evaluation of Response

We recommended that the Directors, John F. Kennedy Space Center and George C. Marshall
Space Flight Center (1) identify all open contracts that either involve potentially hazardous
operations or exceed $1 million and determine whether those contracts have the required safety
clauses and contractor safety plans; (2) determine the cost-effectiveness of modifying those
contracts determined deficient, assess the risk of not modifying the contracts, and make those
modifications deemed cost-effective and necessary; and (3) direct Center safety offices to assist
the responsible Center official in performing an appropriate level (based on assessed risk) of
contractor surveillance for each current applicable contract.

Management concurred with the recommendations. Kennedy and Marshall have planned
procedures to ensure that all open contracts are modified to include the required safety clauses
and contractor safety plans and that an appropriate level of contractor surveillance is performed
on those contracts. Details on the status of the recommendations are in the report's
recommendations section.

Kennedy and Marshall management provided extensive comments on our findings (see
Appendix D). We respond to those comments in Appendix E of the report. Included among
the comments are the following: Management stated that three contracts we questioned related
to shipping liquid hydrogen across the country did not need to be reviewed from a safety
standpoint and were not subject to NASA’s safety policies because the contracts were treated
as commercial acquisitions under FAR Part 12.3 Our concern is that Kennedy management has
not taken appropriate measures such as reviewing the contractor’s safety record and safety
procedures to assure safe contractor shipping of an extremely hazardous material across the
country and safe unloading of the material at NASA facilities.

Management stated that the report listing of contractor mishaps and the U.S. Department of
Labor’s Occupational Safety and Health Administration (OSHA) safety violations is misleading
because it includes close calls and OSHA violations that occurred outside the scope of NASA
work. We believe that it is important to include close calls in our reporting of contractor mishap
statistics because close calls are included in NASA’s definition of mishaps and because they
indicate potential problems that could lead to more serious mishaps. We further believe that it is
proper to report on company-wide OSHA

3
 FAR Part 12, “Acquisition of Commercial Items,” identifies special requirements and other considerations
necessary for proper planning, solicitation, evaluation, and award of contracts for commercial items.
                                                                                                           3


information in our assessment of a contractor’s safety performance because it is a reflection of
the overall safety management practice of the NASA contractor, an area that should be
reviewed and evaluated by NASA prior to contract award.4

[Original signed by]


Roberta L. Gross

Enclosure
 Final Report on Audit of Contract Safety Requirements at Kennedy Space Center and
 Marshall Space Flight Center




4
 NHB 1700.1, "NASA Safety Policy and Requirements Document," June 1, 1993, states that NASA safety
officials are responsible for reviewing a prospective contractor’s safety performance history during bid
evaluation and source selection.
             FINAL REPORT
AUDIT OF CONTRACT SAFETY REQUIREMENTS
   AT KENNEDY SPACE CENTER AND
   MARSHALL SPACE FLIGHT CENTER
W                                                                              June 5, 2000


TO:              Q/Associate Administrator for Safety and Mission Assurance
                 AA/Director, John F. Kennedy Space Center
                 DA/Director, George C. Marshall Space Flight Center

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on Audit of Contract Safety Requirements at Kennedy Space
                 Center and Marshall Space Flight Center
                 Assignment Number A9900302
                 Report Number IG-00-035


The subject final report is provided for your information and use. Our evaluation of your
response is incorporated into the body of the report. The corrective actions planned for the
recommendations are responsive. The recommendations will remain open for reporting purposes
until agreed to corrective actions are completed. Please notify us when action has been
completed on the recommendations, including the extent of testing performed to ensure corrective
actions are effective.

If you have questions concerning the report, please contact Mr. Kevin J. Carson, Program
Director, Safety and Technology Audits, at (301) 286-0498, or Mr. Karl Allen, Auditor-in-
Charge, at (202) 358-2595. We appreciate the courtesies extended to the audit staff. The final
report distribution is in Appendix F.

[Original signed by]


Russell A. Rau

Enclosure
                                                            2


cc:

B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
JM/Director, Management Assessment Division
M/Associate Administrator for Space Flight
QS/Director, Safety and Risk Management Division
KSC/300/Director, Office of Safety and Mission Assurance
MSFC/300/Director, Office of Safety and Mission Assurance
                             NASA Office of Inspector General

IG-00-035                                                                                     June 5, 2000
 A9900302

          Contract Safety Requirements at Kennedy Space Center and
                         Marshall Space Flight Center

Introduction

The NASA Administrator stated in a January 19, 1999, message that safety is the Agency’s highest
core value. On February 26, 1999, the Administrator emphasized the need for NASA contractors
to be supportive of and accountable for safety and has reiterated this point several times since. The
NASA Safety Policy generally requires that NASA safety personnel be actively involved in NASA
procurement actions and conduct appropriate surveillance of contractors’ safety programs.

The overall audit objective was to evaluate the safety procedures of NASA contractors. The
specific objectives were to determine whether:

        •    contractor safety programs are adequately assessed as part of the preaward
             procurement process and the contracts contain appropriate safety clauses and

        •    contractor operations are appropriately reviewed and evaluated for compliance with the
             contract safety provisions and Federal and Agency safety requirements.

As part of the audit, we reviewed contracts at the John F. Kennedy Space Center (Kennedy) and
the George S. Marshall Space Flight Center (Marshall) with completion dates of 2000 and beyond.
For fiscal years 1998 and 1999, contractors at these Centers were involved in 93 mishaps5 resulting
in more than $1.3 million in damage.

Appendix A contains further details on the audit objectives, scope, and methodology.

Results in Brief

NASA is taking action to improve safety with its contractor workforce. Through the Risk Based
Acquisition Management initiative,6 the Agency is revising, but has not yet published, the revised
5
  NASA Policy Directive (NPD) 8621.1G, “NASA Mishap Reporting and Investigation Policy,” defines a mishap
as “any unplanned occurrence or event resulting from a NASA operation or NASA equipment, involving injury
or death to persons, damage to or loss of property or equipment, or mission failure.”
6
  The Agency established Risk-Based Acquisition Management as a NASA procurement initiative in April 1999
to reduce the likelihood and severity of impact from unforeseen events through vigorous risk management. A key
element of the initiative includes revising the NASA Federal Acquisition Regulation Supplement to incorporate
risk management including safety and security considerations.
NASA Federal Acquisition Regulation (FAR) Supplement to ensure that risk is the core concern of
all contracting actions except for purchasing commercial off-the-shelf items. Under this initiative,
contractor safety programs will be appropriately reviewed by Agency safety personnel, based on
assessed risk, from preaward through contract execution. This revision to the NASA FAR
Supplement will apply to all prospective NASA contracts. Although this represents a positive step
by management that should improve safety for all future NASA contracts, this strategy does not
apply to existing contracts. The Agency has not applied existing basic safety provisions such as
required contract safety clauses, contractor safety plans at contract award and Center safety office
involvement in the procurement process to 15 out of 25 contracts that we reviewed at Kennedy and
Marshall. As a result, NASA contractors including some involved in hazardous operations may not
be supporting the same safety goals as NASA.

Background

Both NHB 1700.1,7 “NASA Safety Policy and Requirements Document,” June 1, 1993, and the
NASA FAR Supplement have established NASA’s requirements regarding safety with contractors.
Chapter 2 of NHB 1700.1 addresses contractor safety and requires that (1) the Agency review all
procurement documentation and actions from a safety standpoint, (2) contractors submit a safety
plan as part of the contract, and (3) NASA conduct appropriate surveillance of contractor safety
operations. The NASA FAR Supplement requires that contracts costing more than $1 million,
construction contracts, or contracts involving hazardous operations contain appropriate clauses
related to safety. In addition, the NASA FAR Supplement requires that the offeror submit a detailed
safety and health plan that will be included in the resulting contract. The NASA Office of
Procurement has revised the NASA FAR Supplement to include many of the safety provisions of
Chapter 2 of NHB 1700.1, but has not yet published the revised NASA FAR Supplement.

We selected contracts for review from both Kennedy and Marshall because both Centers administer
contracts for many high-risk NASA operations within the Space Shuttle and International Space
Station programs. Such contracted operations include payload processing, orbiter preparation, and
launch operations at Kennedy and the construction of the Space Shuttle external tank, main engines,
and solid rocket boosters that are managed at Marshall. According to NASA Office of Safety and
Mission Assurance records for 1998, both Centers incurred mishap damage totaling $772,000 or
94 percent of all reported NASA contractor mishap damage.8 NASA Office of Safety and Mission
Assurance personnel told us that these Centers accounted for most mishap damage due to the high-
value Space Shuttle and International Space Station hardware that the Centers used.




7
  On January 24, 2000, the Agency issued NASA Procedures and Guidelines 8715.3, “NASA Safety Manual,”
which replaced NHB 1700.1.
8
  NASA’s Office of Safety and Mission Assurance maintains a consolidated record of contractor mishap data
reported by NASA Centers. The Ames Research Center, Dryden Flight Research Center, Jet Propulsion
Laboratory, and the Langley Research Center did not report damage due to contractor mishaps for 1998.

                                                   2
Basic Contract Safety Requirements

Finding. Sixty percent (15 out of a total of 25) of contracts reviewed at Kennedy and Marshall did
not include basic requirements to ensure safety. Specifically, not all contracts that we reviewed
included basic requirements such as the NASA FAR Supplement safety clause and a NASA-
approved, contractor safety plan at contract award.9 This condition occurred because the applicable
Center safety offices were not adequately involved in the procurement process to ensure that these
basic safety requirements were consistently applied to NASA contractors. As a result, NASA lacks
assurance that its contractors at Kennedy and Marshall are working in accordance with NASA
safety standards. By not including certain safety provisions and requirements in the contract,
contractors are not contractually bound to the requirement for compliance with all Federal, state and
local laws applicable to safety. Three of the questioned contracts involve extremely hazardous
operations, and three are with contractors who have been involved in NASA mishaps. In addition,
five of the questioned contractors have had prior safety violations as reported by OSHA. The
OSHA violations were for the entire company and were not in all cases at the place of NASA
contract performance (other than three violations under contract NAS10-12060 that occurred at
NASA’s Vandenberg launch site).

NASA FAR Supplement and NHB 1700.1 Requirements

Section 1823 of the NASA FAR Supplement requires that the Contracting Officer insert the
following provision in all negotiated contracts of $1 million or more; all construction, repair, or
alteration contracts; or any acquisition regardless of dollar amount when the deliverable is of a
hazardous nature:

                  The Offeror shall submit a detailed safety and health plan, as part of the
                  offeror’s proposal, showing how the Contractor intends to protect the life,
                  health, and well being of NASA and contractor employees as well as property
                  and equipment. This plan, as approved by the Contracting Officer, will be
                  included in any resulting contract.


In addition to the NASA FAR Supplement, NHB 1700.1, Section 207(b) states that:

                  The contractor will be required to submit Safety Program Plans to the
                  Contracting Officer for safety review by the safety Contracting Officer’s
                  Technical Representative and to obtain NASA approval before startup of
                  operations.




9
 NHB 1700.1, Section 207, “Safety Program Plans,” states that these plans are intended to ensure that the
contractor has adequate safety programs and has not neglected safety in the interest of obtaining a more
favorable bid in the short term. The safety plan shall furnish specific information on how the contractor intends
to protect the life and well being of contractor and Agency employees and the public as well as any NASA
property and equipment.

                                                      3
Results of Contracts Reviewed

Our sample10 of 25 contracts at Kennedy and Marshall showed that the required NASA FAR
Supplement clause, contractor safety plans, or both were missing on 14 contracts. Details are
shown in the following table.

                    Contracts With Missing Clauses and Safety Plans

                                                       Kennedy      Marshall         Total

         Contracts Reviewed                                 13          12             25

         No required NASA FAR                               2            4             6
         Supplement safety clause.

         No required contractor safety plan at              5            9             14
         award date. *

* These figures include five contracts for which there was no safety plan and nine contracts for which a safety
plan was not provided by the contractor at the time of contract award. Appendix C contains details on the results
of our review for each contract and a table of the contracts for which exceptions were identified.



Safety Office Oversight

The missing safety clauses and contractor safety plans can be attributed to the lack of continuous
Center safety office involvement in the contracting process. NHB 1700.1, Chapter 2, Section
202(c)(2), states that Safety Officials are responsible for:

                    (a) Reviewing and providing safety input for documents (including
                        requirements, objectives, specifications, standards) and specific tasks.

                    (b) Serving as a member or technical advisor on safety matters during source
                        evaluation board matters . . . .

                    (e) Conducting safety program reviews or technical evaluations of the
                        contractor’s operation or product for safety, including compliance with
                        safety provisions of the contract.

There was no evidence that either Center’s safety office had been involved (such as review of
specifications and review and approval of contractor safety plan) in the contracting process for 13 of
the 25 contracts examined. Had Centers participated in the contracting process, they would have
identified the missing safety clauses and contractor safety plans. Also, neither the Kennedy nor
Marshall safety office had formal procedures for reviewing contractor safety programs. Safety

10
     See Appendix A for details on the contract sample selection.

                                                        4
program reviews of contractor operations (also referred to in NHB 1700.1 as “surveillance”) would
also have detected missing contractor safety plans, and more timely corrective actions could have
been taken. Details regarding each Center follow:

•   Kennedy Safety Office Involvement. At Kennedy, there was no evidence in the contract
    files of safety office input into the contracting process for 6 of the 13 contracts reviewed. The
    Kennedy Chief Safety Officer stated that the Kennedy safety office reviews the safety
    requirements and contractor safety plans of all contracts, but does not always document this
    review process. For three contracts that involve the shipment of hazardous material, the
    Kennedy procurement office told us that the contracts did not have safety plans because the
    procurement office treated the contracts as commercial acquisitions. The Kennedy Chief Safety
    Officer informed us that a safety plan should have been included in the contracts, but was not,
    which indicated to us that the safety office did not review the contracts. In addition, the
    Kennedy Chief Safety Officer stated that because of limited staffing, the Kennedy safety office
    conducts fewer contract safety surveillance activities. These safety surveillance activities are
    limited to various inspections of major contractors in support of award fee evaluations.

•   Marshall Safety Office Input. At Marshall, there was no evidence in the contract files of any
    safety office input into the contracting process for 7 of the 12 contracts reviewed. Marshall’s
    procedure for conducting surveillance of contractor safety was unclear. Marshall procurement
    and safety personnel informed us early in the audit that safety surveillance was generally
    delegated to the Defense Contract Management Command (DCMC). However, the DCMC
    representative at Marshall stated that safety was usually not delegated. Subsequently, Marshall
    Safety, Reliability and Quality Assurance Department officials informed us that Contracting
    Officers are responsible for ensuring contractor compliance with safety requirements. This
    position is in contrast to the requirements of NHB 1700.1, which states that the safety office is
    responsible for conducting safety reviews or technical evaluations of the contractor’s operations.
    Marshall safety office personnel informed us that they perform independent reviews of contractor
    safety programs to ensure compliance with contracted safety requirements. However, when we
    asked for documentation on the reviews, the Marshall safety office was unable to provide the
    documented support for the reviews.

Effects of Missing Contract Safety Provisions

By not ensuring that contractor safety plans are included in all contracts, NASA has no assurance
that its contractors have effective policies and procedures in place to protect the life and well being
of contractor and Agency employees, the public, and NASA property and equipment. Additionally,
by not including required safety clauses in the contracts, contractors are not contractually bound to
the requirement for compliance with all Federal, state and local laws applicable to safety. The
contracts that lacked the required safety clauses or contractor safety plans present potential
increased safety risks. Specifically, several of the contracts involved extremely hazardous
operations, while some of the contractors were involved in NASA mishaps or have had prior OSHA
safety violations.


                                                5
•    Hazardous Operations. Three Kennedy contracts11 that did not contain the required safety
     clause or contractor safety plan were with vendors for transporting liquid hydrogen from
     Pennsylvania and Connecticut to various locations in California. According to NASA Safety
     Standard 1740.16, “Safety Standard for Hydrogen and Hydrogen Systems,” February 12,
     1997, the primary hazard of any form of hydrogen is inadvertently producing a flammable or
     detonable mixture leading to a fire or detonation. A material safety data sheet from one of the
     contractors described liquid hydrogen as an extremely cold flammable liquid that can cause
     severe frostbite, form explosive mixtures with air, freeze air in vent lines, and cause dizziness and
     drowsiness. One of the contractors in question experienced an employee fatality in 1997 when a
     pressurized tank exploded. Kennedy contracting personnel informed us that safety plans were
     not required for these contracts because the procurements were treated as commercial
     acquisitions in order to streamline the acquisition process. The Kennedy Chief Safety Officer
     stated that the contracts should have had safety plans regardless of the type of acquisition.

•    Prior OSHA Violations and Mishaps . Some of the questioned contracts posed significant
     safety risks due to the past safety records of the contractors involved. Five of the questioned
     contractors were cited for 43 OSHA safety violations since 1994, including accidents resulting in
     two fatalities and serious bodily injury. Three of the safety violations occurred on a NASA
     facility. Also, three of the questioned contractors reported 55 mishaps during fiscal years 1998
     and 1999, resulting in more than $73,000 in damages. Overall, the 25 contractors reviewed
     were cited for 126 OSHA violations since 1994 and were involved in 119 mishaps resulting in
     more than $103,000 in damage.

See Appendix C for more details, by contract, on hazardous operations and prior violations and
mishaps.

NASA is taking action to improve safety with its contractors for all prospective NASA contracts.
We believe that NASA’s Risk-Based Acquisition Management initiative should prevent the
deficiencies noted in this report for all future NASA contracts. However, there are some existing
high-risk contracts with periods of performance through 2010. The contracts include contractors
with questionable safety records that require immediate action to ensure that the contractors follow
NASA’s safety policy.

Recommendations, Management’s Response, and Evaluation of Response

Kennedy and Marshall management provided extensive comments on our finding that are addressed
in Appendix E of the report.

The Directors, John F. Kennedy Space Center and George S. Marshall Space Flight
Center should:
11
 Contracts NAS10-12150 and NAS10-98011 were with Air Products and Chemicals, and contract NAS10-98012
was with Praxair, Inc.


                                                  6
    1. Identify all open contracts that involve either potentially hazardous operations or
    exceed $1 million and determine whether those contracts have the required safety
    clauses and contractor safety plans.

Management’s Response. Concur. Both Centers will take action to review applicable contracts
to ensure that they include the safety and health clause and a contractor safety plan. Additionally,
Marshall plans to develop a database to track contractor safety requirements and approval of safety
and health plans. Marshall has also approved two new Center-wide work instructions in the
contracting area with specific safety review steps in the procurement process. The complete text of
management's response is in Appendix D.

Evaluation of Management’s Response. Management’s planned actions are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open for
reporting purposes until corrective actions are completed.

    2. Establish a methodology for determining the cost-effectiveness of modifying those
    contracts determined deficient (as defined above), and use this methodology to assess
    the risk of not modifying the contracts and make those modifications deemed cost-
    effective and necessary.

Management’s Response. Concur. Marshall plans to establish a methodology to determine
which existing contracts will be updated to meet safety requirements. Kennedy will request a
proposal from each applicable contractor of the cost of adding the required clauses (see Appendix
D).

Evaluation of Management’s Response. Management’s planned actions are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open for
reporting purposes until corrective actions are completed.

     3. Direct the Center safety offices to assist the responsible Center official in
    performing an appropriate level (based on assessed risk) of contractor surveillance,
    either themselves or by delegation, for each current applicable contract.

Management’s Response. Concur. Under Kennedy’s reorganization, the safety and mission
assurance function will be embedded in all organizations that will have the responsibility to assure the
appropriate level of contractor surveillance. Marshall will use the database developed as part of
Recommendation 1 to track contractor surveillance and plans to develop a work instruction to
document the surveillance process (see Appendix D).

Evaluation of Management’s Response. Management’s planned actions are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open for
reporting purposes until corrective actions are completed.



                                                 7
                Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the audit was to evaluate the safety procedures of NASA contractors. The
specific objectives related to this report were to determine whether:

    •   contractor safety programs are being adequately assessed as part of the preaward
        procurement process and the contracts contain appropriate safety clauses and

    •   contractor operations are appropriately reviewed and evaluated for compliance with the
        contract safety provisions and statutory and regulatory safety requirements.

This is the third report issued as part of the overall audit of NASA’s Safety Program Management.
Details on the findings and recommendations contained in the two previous reports are in Appendix
B.

Scope and Methodology

To accomplish our objectives we:

•   Reviewed NASA’s safety requirements for contractors.

•   Discussed NASA contractor safety policies and procedures with officials from NASA’s Office
    of Safety and Mission Assurance and Office of Procurement and from the Defense Contract
    Management Command.

•   Reviewed a total of 13 Kennedy contracts and 12 Marshall contracts and discussed each
    contract’s safety requirements with the Contracting Officers, Contract Specialists, and the
    Center safety officials.

Sample Selection

To select our sample, we identified, from the NASA Financial and Contractual Status (FACS)
System, all open contracts with completion dates of 2000 and beyond, that either exceeded $1
million or, by contract work description, appeared to involve hazardous or potentially hazardous
work. We relied on the automated data in the FACS System to complete our audit objectives and
performed no additional verification of the system. From the FACS System, we identified a universe
of 26 Kennedy contracts and 64 Marshall contracts. From the universe, we judgmentally selected
for review 13 contracts from Kennedy and 12 contracts from Marshall. These samples represented
approximately 50 and 19 percent of the universes from Kennedy and Marshall, respectively. During
our review of the contracts, we confirmed that each contract involved hazardous or potentially
hazardous operations.

                                                8
                                                                                         Appendix A

Criteria Followed

In conducting our audit, we followed the requirements of NASA Handbook (NHB) 1700.1,
“NASA Safety Policy and Requirements Document,” that was in effect during the time of our audit
field work. On January 24, 2000, NASA issued NASA Procedures and Guidelines (NPG) 8715.3,
“NASA Safety Manual,” which effectively replaced NHB 1700.1. NPG 8715.3 incorporates most
of the requirements of NHB 1700.1 including the requirements that all procurement documentation
and actions be reviewed from a safety standpoint, contractors submit a safety plan as part of the
contract, and NASA conduct appropriate surveillance of contractor safety operations.

Management Controls Reviewed

We reviewed management controls relative to safety requirements for NASA contracts as described
in NHB 1700.1, Section 202. Specifically, we reviewed the Contracting Officer’s procedures for
ensuring that specific contractor safety tasks are clearly defined in the basic contract and that the
contracts contain the required safety clauses and contractor safety plans. As discussed in the finding,
controls need to be strengthened to ensure that Kennedy and Marshall include the NASA FAR
Supplement safety clauses and contractor safety plans in each applicable contract.

Audit Field Work

We conducted field work from October 1999 through March 2000, at NASA Headquarters,
Kennedy, and Marshall. We performed the audit in accordance with generally accepted government
auditing standards.




                                                10
                    Appendix B. Summary of Prior Audit Coverage

“Safety Considerations at Goddard Space Flight Center,” Report Number IG-00-047,
September 22, 1999. In an April 1998 Senior Management Council meeting, the NASA
Administrator stated that safety is the Agency's highest priority. The Administrator's mandate
renewed the Agency's emphasis on safety and culminated in the Agency Safety Initiative (ASI.) The
basic goal of the ASI is to make NASA the safest organization in the nation with zero tolerance for
mishaps. The overall objective of the audit was to evaluate management of NASA's safety program.
While conducting the audit, we identified issues requiring immediate management attention that could
affect the safety of Goddard Space Flight Center (Goddard) employees. Specifically, we
determined that (1) Goddard's various safety offices are not consolidated into one organization with
a full-time director; (2) the mishap reporting process does not ensure that the causes of all mishaps
are properly addressed and that all mishaps and related information are adequately reported; and (3)
contractor's safety records were not evaluated prior to contract award, as required by the NASA
Safety Manual. We recommended that the Director of Goddard (1) evaluate the effectiveness of the
ongoing safety initiatives, (2) ensure that all mishaps are reported accurately and in a timely manner
and that the root causes are identified, and (3) establish procedures for reviewing contractor safety
records before contract award. Management concurred with each recommendation.

“Safety Concerns with Kennedy Space Center’s Payload Ground Operations,” Report
Number IG-00-28, March 30, 2000. In February 1999, the NASA OIG was requested by the
House of Representatives Committee on Science to address concerns related to safety functions of
the Kennedy Space Center’s Payload Ground Operations Contract performed by McDonnell
Douglas Aerospace, Space and Defense Systems; a subsidiary of The Boeing Company (Boeing).
In response to this request, we reviewed the contractor’s operations to determine whether (1) safety
responsibilities between Boeing and NASA had been clearly defined; (2) hazardous materials were
being used in Kennedy’s processing facilities; and (3) hazardous materials, if used, were properly
controlled. The audit identified that ground workers were using potentially hazardous materials in
Kennedy processing facilities without exercising proper control and safety precautions. This
condition exists because (1) Boeing safety personnel have not performed adequate, contract-
required inspections of the facilities and (2) Kennedy or Boeing safety personnel had not reviewed
the Materials Usage Agreements, which were not supported by risk analyses, authorizing use of the
hazardous materials. As a result, NASA lacks assurance that associated risks are adequately
identified, documented, reviewed, and mitigated. Improper use of these materials is hazardous to
ground workers and increases the risk of damage to Space Shuttle payloads, including International
Space Station hardware and equipment. Recommendations were made to management to (1) direct
the contractor to perform analyses to support the use of all materials that do not meet requirements
for flammability and electrostatic discharge, (2) clarify instructions for preparation of Materials Usage
Agreements, and (3) increase surveillance of the contractor’s safety office inspection procedures.
Management concurred with each recommendation.
                       Appendix C. Detailed Review of Contracts

 Contract Number/
    Contractor                    Description                        Auditor Observations

Kennedy Contracts
NAS3-27262               Firm fixed-price contract for      OSHA cited the contractor for two safety
Lockheed Martin          Launch Services of Intermediate    violations since 1994.
Astronautics             Expendable Launch Vehicles for
                         Earth Observing System AM-1.

NAS5-30722               Firm fixed-price contract for      OSHA cited the contractor for six safety
McDonnell Douglas        launch of Medium Class             violations since 1994.
Corp.                    Expendable Launch Vehicles
                         with Government payloads into
                         assigned orbit(s).

NAS10-11400              Cost-plus-award-fee contract       We identified a significant safety problem in
McDonnell Douglas        for payload ground operations      that the contractor was not properly
Aerospace, Space and     at Kennedy.                        controlling the use of potentially hazardous
Defense Systems                                             materials in Kennedy processing facilities.
                                                            We reported on these problems in audit
                                                            report number IG-00-028, dated March 30,
                                                            2000. See Appendix B.

                                                            The contractor, who is responsible for safety
                                                            in several facilities, reported 34 mishaps in
                                                            fiscal year 1998 and 29 mishaps in fiscal year
                                                            1999. Total damage incurred, as a result of
                                                            those mishaps, was $29,467.

NAS10-12060              Cost-plus-fixed-fee contract for   Kennedy did not require the contractor to
Space Mark, Inc.         operation support services at      submit a safety plan as part of the contract
                         the Vandenberg launch site in      evaluation process. There was no contractor
                         California.                        safety plan in the contract file prior to our
                                                            audit. When our audit was announced, the
                                                            Contracting Officer requested and received a
                                                            safety plan from the contractor.

                                                            OSHA cited the contractor for seven safety
                                                            violations since 1994. Three of the violations
                                                            occurred at the Vandenberg launch site in
                                                            California. Also, the contractor reported two
                                                            mishaps in fiscal year 1998 and four mishaps
                                                            in fiscal year 1999. Total damage incurred, as
                                                            a result of the mishaps was $1,350.

NAS10-12100              Fixed-price contract for           We found no evidence of review of the
Praxair, Inc.            providing liquid hydrogen for      contractor’s safety plan by Kennedy. The
                         users on the east coast.           review is required by NHB 1700.

                                                            OSHA cited the contractor for 14 safety
                                                            violations since 1994. One of the violations
                                                            was imposed as a result of a fatal accident.
Appendix C

Contract Number/
   Contractor                    Description                          Auditor Observations
NAS10-12150             Fixed-price contract for providing   Kennedy could not produce the contractor
Air Products and        liquid hydrogen for users on the     safety plan.
Chemicals               east coast.
                                                             OSHA cited the contractor for seven safety
                                                             violations since 1994. One of the violations
                                                             was imposed as a result of a nonfatal
                                                             accident.

NAS10-98011             Firm fixed-price contract for        The contract did not contain the required
Air Products and        providing and transporting liquid    safety clause, and a contractor safety plan
Chemicals               hydrogen from Pennsylvania to        was not included as part of the contract.
                        destinations in California and
                        New Mexico.                          OSHA cited the contractor for seven safety
                                                             violations since 1994. One of the violations
                                                             was imposed as a result of a nonfatal
                                                             accident.

NAS10-98012             Firm fixed-price contract for        The contract did not contain the required
Praxair, Inc.           providing and shipping liquid        safety clause, and a contractor safety plan
                        hydrogen from Connecticut to         was not included as part of the contract.
                        destinations in California.
                                                             OSHA cited the contractor for 14 safety
                                                             violations since 1994. One of the violations
                                                             was imposed as a result of a fatal accident.

NAS10-98050             Firm fixed-price contract for        OSHA cited the contractor for 45 safety
York International      upgrading the utility annex          violations since 1994. Six of these violations
                        chillers at Kennedy and              were imposed as a result of a fatal accident.
                        reconditioning the motors.

NAS10-99001             Cost-plus-award-fee contract for     The contractor safety plan was not included
Space Gateway Support   joint base operations and            as a contract deliverable, thus Kennedy never
                        support services for Kennedy,        reviewed the contractor safety plan. When
                        Cape Canaveral Air Station, and      our audit was announced, the Contracting
                        Patrick Air Force Base.              Officer requested and received a safety plan
                                                             from the contractor.

                                                             The contractor, who is responsible for a large
                                                             portion of Kennedy safety, reported 1 mishap
                                                             in fiscal year 1998 and 47 mishaps in fiscal
                                                             year 1999. Total damage incurred as a result
                                                             of these mishaps was $42,507.




                                                   3
                                                                                                Appendix C

 Contract Number/
    Contractor                    Description                          Auditor Observations
NAS10-96033               Firm fixed-price contract for      None
RKT Constructors          replacing boilers 1, 2, and 3 at
                          Kennedy’s central heat plant.

NAS10-99023               Firm fixed-price contract for      OSHA cited the contractor for three safety
Oneida Construction       modifying various Kennedy          violations since 1994.
                          facilities to accommodate the
                          disabled.

NAS10-99036               Firm fixed-price contract for      OSHA cited the contractor for 10 safety
Rush Construction, Inc.   construction of Flight Vehicle     violations since 1994.
                          Landing Support Complex at
                          Kennedy.


Marshall Contracts
NAS8-37716                Cost-no-fee contract to            The contractor safety plan was not in the
Massachusetts Institute   conduct an x-ray imaging           contract file when we reviewed the file.
of Technology             spectroscopy scientific            Management subsequently produced a copy
                          investigation.                     of the safety plan; however, the plan was
                                                             dated September 1994 –more than 4 years
                                                             after NASA awarded the contract. There is
                                                             no evidence of Marshall safety office review
                                                             and approval of the safety plan.

                                                             OSHA cited the contractor for one serious
                                                             safety violation in 1994.

NAS8-97256                Cost-plus-incentive fee            OSHA cited the contractor for 13 serious
Teledyne Brown            contract for operation and         safety violations since 1994.
Engineering               maintenance of propellants,
                          pressurants, and calibration       The contractor was involved in one close call
                          services at Marshall.              in July 1999, but it did not result in injury or
                                                             damage.

NAS8-99073                Cost-plus-fixed-fee contract for   The contract did not contain the required
New Century               the Protein Crystal Growth         safety clause nor was there a contractor
Pharmaceuticals           Facility-based microgravity        safety plan.
                          hardware; science, and
                          applications.

NAS8-37710                Cost-plus-award-fee contract       The contractor did not submit a safety plan
TRW                       for the Advanced X-ray             until October 1992, more than 2 years after
                          Astrophysics Facility.             contract award. We found no evidence of
                                                             Marshall safety office review and approval of
                                                             the safety plan.

                                                             OSHA cited the contractor for 10 serious
                                                             safety violations since 1994 and reported
                                                             three accidents resulting in an employee
                                                             fatality, a lost fingertip, and a broken leg.

                                                    4
Appendix C

  Contract Number/
     Contractor                     Description                          Auditor Observations
NAS8-40887                  Firm fixed-price contract to        The contractor did not submit a safety plan
Orbital Sciences            perform a study known as “X-        until 3 years after contract award (1 day
Corporation                 34”                                 before our scheduled review). There was no
                                                                evidence of Marshall safety office’s review
                                                                and approval of the safety plan.
NAS8-38100                  Cost-plus-award-fee contract        OSHA cited the contractor for four safety
Thiokol                     to manufacture and deliver the      violations since 1994 and three accidents, one
                            Shuttle redesigned rocket           resulting in loss of an employee’s finger.
                            motors.
NAS8-99057                  Firm fixed-price contract to        The contract did not include the standard
Smith Service Corporation   repair and modernize Marshall       NASA FAR Supplement safety clause. A
                            building 4711.                      safety plan was not available in the contract
                                                                file. Marshall management eventually
                                                                produced a contractor safety plan dated 4
                                                                months after contract award. There was no
                                                                evidence of review and approval of the safety
                                                                plan by the Marshall safety office.
NAS8-97331                  Firm fixed-price contract for the   The contract did not include the standard
Sauer inc.                  construction of the Marshall        NASA FAR Supplement safety clause. A
                            centralized chiller facility.       safety plan was not available in the contract
                                                                file. Marshall management eventually
                                                                produced a contractor safety plan dated 4
                                                                months after contract award. There was no
                                                                evidence of review and approval of the safety
                                                                plan by the Marshall safety office.

                                                                The contractor was involved in a mishap at
                                                                Marshall in May 1999 that resulted in
                                                                damages of $30,000.
NAS8-39038                  Cost-plus-fixed-fee contract for    The contract did not include the standard
Lockheed/IBM                the Space Shuttle modular           NASA FAR Supplement safety clause. A
                            rocket engine.                      contractor safety plan was not in the contract
                                                                file.
NAS8-50001                  Cost, no-fee consolidated           None.
Boeing Aerospace            facility contract.
NAS8-99053                  Firm fixed-price contract to        A safety plan was not in the contract file.
Lee Builders                repair the roof of Marshall         Marshall management eventually produced a
                            Building 4619.                      contractor safety plan that was dated 3
                                                                months after contract award.

                                                                OSHA cited the contractor for five safety
                                                                violations since 1994.
NAS8-98053                  Cost-plus-award-fee contract        The contractor safety plan was dated 7
United Technologies         for the preliminary definition of   months after contract award.
Corporation                 the International Space Station
Hamilton Sundstrand         water processor assembly and
Space Systems               oxygen generator assembly.
International




                                                     6
                                                                                                      Appendix C

                                          Summary of Questioned Contracts

                    No Safety    No Safety        No Evidence of        No. of OSHA       No. of     $ Value
  Contract           Clause        Plan1        Safety Office Review     Violations      Mishaps   of Mishaps
NAS10-12060                          X                   X                    7             6            $1,350
NAS10-12100                                              X                   14
NAS10-12150                          X                   X                    7
NAS10-98011            X             X                   X
NAS10-98012            X             X
NAS10-99001                          X                   X                                  48          $42,507
NAS8-37716                           X                   X
NAS8-99073             X             X                   X
NAS8-37710                           X                   X                    10
NAS8-40887                           X                   X
NAS8-99057             X             X                   X
NAS8-97331             X             X                   X                                  1           $30,000
NAS8-39038             X             X                   X
NAS8-99053                           X                                        5
NAS8-98053                           X
               15      6             14                  13                   43            55          $73,857
   Percentage2
          60%         24%           56%                 52%

    1
        The contractor did not submit a safety plan at contract award as required by NHB 1700.
    2
        The percentages are of the total universe (25) of contracts reviewed.




                                                              7
Appendix D. Management’s Response




              8
    Appendix D




             See Appendix E,
             OIG Comment 1.

             See Appendix E,
             OIG Comment 2.


             See Appendix E,
             OIG Comment 3.




             See Appendix E,
             OIG Comment 4.




             See Appendix E,
             OIG Comment 5




9
             Appendix D




See Appendix E,
OIG Comment 5.




See Appendix E,
OIG Comment 6.




See Appendix E,
OIG Comment 7.




See Appendix E,
OIG Comment 8.



See Appendix E,
OIG Comment 5.


See Appendix E,
OIG Comment 1.




                          10
     Appendix D




          See Appendix E,
          OIG Comment 1.

          See Appendix E,
          OIG Comment 7.



          See Appendix E,
          OIG Comment 7.




          See Appendix E,
          OIG Comment 9.




          See Appendix E,
          OIG Comment 10.




          See Appendix E,
          OIG Comment 11.




11
            Appendix D




See Appendix E,
OIG Comments 1,5.




 See Appendix E,
 OIG Comment 12.



 See Appendix E,
 OIG Comment 3.

 See Appendix E,
 OIG Comment 13.

 See Appendix E,
 OIG Comment 14.


 See Appendix E,
 OIG Comment 2.


 See Appendix E,
 OIG Comment 15.




                         12
     Appendix D




          See Appendix E,
          OIG Comment 16.




13
           Appendix D




See Appendix E,
OIG Comments 17,
18 and 20.




See Appendix E,
OIG Comments 17,
18, 19 and 20.




See Appendix E,
OIG Comments 18
and 21.



See Appendix E,
OIG Comments 18
and 20.




                        14
     Appendix D




15
Appendix D




             16
             Appendix E. OIG Comments on Management’s Response

Kennedy and Marshall management provided the following comments in response to our draft
report. Our responses to the comments are also presented.

Management’s Comment. The report states that 60 percent of the contracts reviewed did not
have basic safety requirements. This figure is overstated because several contracts that were
reported as deficient either had a safety and health clause in the contract or did not require this
clause.

1. OIG Comment. Management provides no support for its statement that some of the questioned
contracts contained either the required safety clause or the contractor safety plans. We gave
management at both Centers several months to review the results of our audit and to provide
supporting documentation to refute our observations. For example, during the initial stages of the
audit in September 1999, we found that contract NAS10-12150 at Kennedy did not contain a
required contractor safety plan. We immediately brought this discrepancy to the attention of the
Contracting Officer. The Contracting Officer stated that he could not locate a copy of the safety
plan and sent us to the Kennedy safety office to obtain a copy of the plan. The Kennedy safety
office, in turn, could not locate the contractor safety plan, and told us that we had to obtain it from
the Contracting Officer.

In December 1999, we gave management a spreadsheet detailing the results of our review of
Marshall contracts. Marshall management responded with additional information and supporting
documentation that we incorporated into our overall observations. On
March 1, 2000, we provided management with a copy of the proposed draft report (including
Appendix C which shows the detailed results of our review of each contract) and followed up with a
March 8, 2000, visit to Marshall to discuss the proposed report with responsible management
officials. During this meeting, Marshall management did not dispute the facts in the proposed draft
report and did not offer additional information or documentation to refute the audit observations.

Management’s Comment. Appendix C of the report cites OSHA violations on NASA
contractors that are misleading. For example, Teledyne Brown Engineering (NAS8-97256) has held
the Pressurants and Propellants contract at Marshall for more than 20 years and has never been
cited for violations. The report, however, states that OSHA cited the contractor for 13 serious safety
violations since 1994.

2. OIG Comment. According to OSHA’s Integrated Management Information System, Teledyne
Brown Engineering was cited for 13 safety violations from January 1994 through December 1997.




                                                17
Appendix E


Management’s Comment. Contract NAS10-11400 at Kennedy had only 10 type C mishaps and
5 incidents12 during 1998 and 1999, not the 63 mishaps reported by the OIG. We speculate that the
OIG’s total includes close calls, which are not mishaps.

3. OIG Comment. Kennedy’s Incident Reporting Information System records show that the
contractor, McDonnell Douglas Aerospace, Space and Defense Systems, reported 63 mishaps
totaling $29,467 in damages during 1998 and 1999. NASA Policy Directive 8621.1G, “NASA
Mishap Reporting and Investigation Policy,” defines a mishap as:

                  Any unplanned occurrence or event resulting from any NASA operation or
                  NASA equipment anomaly, involving injury or death to persons, damage to
                  or loss of property or equipment, or mission failure. . . .


Included in that definition of mishaps are close calls that are defined as:

                  An occurrence in which there is no injury, no equipment/property damage
                  equal to or greater than $1,000, and no significant interruption of productive
                  work, but which possesses a high severity potential for any of the mishaps
                  defined as Types A, B, or C Mishaps, Mission Failure, or Incident.


Management’s Comment. The OIG recognizes that many of the safety clause requirements
discussed are applied to contracts based on NASA risk management initiatives and are applicable to
defined classes of acquisitions except for contracts for commercial off-the-shelf items. Yet, the
report fails to note this exception.

4. OIG Comment. As noted in the first paragraph on page 2 of the report, NASA’s Risk-Based
Acquisition Management initiative did not apply to contracts that were active as of the time of our
audit.

Management’s Comment. Contracts treated as commercial acquisitions under FAR Part 12, and
contracts subject to the Walsh-Healey Public Contracts Act13 are not subject to the NASA FAR
Supplement safety and health clause.



12
   NASA Policy Directive 8621.1G, section 2 (b.)(1), defines the various mishaps as follows:
Type A – Mishap causing death or damage greater than $1 million.
Type B – Mishap resulting in permanent disability, hospitalization, or damage greater than $250,000.
Type C – Mishap causing damage to property greater than $25,000 and/or lost workdays.
Mission Failure – Mishap that prevents the achievement of a primary NASA mission.
Incident – Mishap that results in personal injury greater than first-aid severity and property damage greater than
$1,000.
13
   The Walsh-Healey Public Contracts Act requires that “contracts entered into by any agency of the United
States for the manufacture or furnishing of materials, supplies, articles, and equipment in any amount exceeding
$10,000 must contain, among other provisions, a stipulation that no part of such contract will be performed nor
will any of the materials, supplies, articles, or equipment to be manufactured or furnished under the contract be
manufactured or fabricated in any plants, factories, buildings, or surroundings or under working conditions which
are unsanitary or hazardous or dangerous to the health and safety of employees engaged in the performance of
the contract.”
                                                        18
Appendix E

5. OIG Comment. Throughout its response, management basically states that Kennedy contracts
NAS10-12100, NAS10-12150, NAS10-98011 and NAS10-98012 were treated
either as commercial acquisitions or were subject to the Walsh-Healey Public Contracts Act and
were, therefore, not subject to NASA’s safety policy. We do not agree with management's position
for the following reasons:

•   FAR Part 12.202 (a) states, “Market research is an essential element of building an effective
    strategy for the acquisition of commercial items and establishes the foundation for the agency
    description of need . . .” The safety of the general public and NASA employees has been
    clearly communicated to all NASA employees as a basic agency need as part of the Agency
    Safety Initiative (ASI). However, the market research documentation that supports these
    contracts makes no reference to safety. As a result, there is no documented evidence of
    NASA’s assurance that the liquid hydrogen is transported safely as part of these contracts.

•   The Walsh-Healey Public Contracts Act requires contracts entered into by a Federal agency for
    the furnishing of materials exceeding $10,000 to contain a stipulation that no part of the contract
    will be performed under working conditions that are unsanitary, hazardous, or dangerous to the
    health and safety of its employees engaged in the performance of the contract. Provisions do not
    ensure the safety of the general public during potentially hazardous operations such as the
    transport of liquid hydrogen across the country and do not ensure the safety of NASA
    employees when the liquid hydrogen is unloaded at its final destination.

•   NHB 1700.1 requires that the safety requirements, documentation, and procedures (including
    contractor safety plans, safety office review, etc.) outlined in the handbook be included in all
    contracts that support NASA operations and makes no exceptions.

Regardless of these requirements, sound management and common sense should prevail. The
shipment of an extremely hazardous material like liquid hydrogen across the country is a hazardous
operation. By allowing this contract to proceed without ensuring that the contractor has a sound
safety program in place, NASA has not demonstrated the commitment to safety emphasized by the
ASI.

Management’s Comment. The report states that both Centers incurred mishap damage totaling
$772,000 or 94 percent of all NASA contractor mishap damage. It is important to distinguish
between “all” and “reported” as not all NASA Centers report their contractor mishaps.

6. OIG Comment. Footnote 8 has been added to the report to show that contractor mishap
information was obtained from a NASA Office of Safety and Mission Assurance database and that
several NASA Centers did not report contractor mishap data to that database.

Management's Comment. The report states "Sixty percent (15 of 25) of contracts reviewed at
Kennedy and Marshall did not include basic requirements to ensure safety." This statement implies
that there were no safety and health plans for 60 percent of the contracts reviewed.




                                                19
Appendix E

However, the table "Contracts With Missing Clauses and Safety Plans," on page 4 of the report
contradicts this statement. The table lists eight contracts for which a safety plan was
not provided at the time of contract award, although subsequent to contract award, safety plans
were provided. Also, two of these contracts were fixed price Invitation for Bid construction
procurements. Safety plans for these contracts are approved after bid opening and prior to notice to
proceed. No work occurs until after the notice to proceed.

7. OIG Comment. The NASA FAR Supplement and NHB 1700.1 clearly state that contractor
safety plans should be reviewed before awarding the contract. Some of the safety plans were
submitted 2 to 3 years after contract award including one safety plan that was dated the day before
we arrived to conduct audit work at Marshall. We question the effectiveness of reviewing a safety
plan after contract award, and in particular, 2 to 3 years after contract award. We also question the
value of a safety plan submitted by a contractor 2 to 3 years after contract award. When formulating
our audit conclusions, we did not question any contract for which we found even minor evidence to
support that NASA safety had reviewed the safety plan. For all questioned contracts, there was no
evidence of NASA safety office review of the safety plan at any time.

The table on page 4 of the report explains that some of the contracts’ safety plans were submitted
late. We have revised the Results in Brief section of the report to clarify that the safety plan is
required at contract award.

Management’s Comment. Footnote 5 states that "The OSHA violations were for the entire
company and not necessarily at the place of NASA contract performance." This footnote should be
explained in the main body. It is important to differentiate between safety violations at the NASA
Center and those at other locations. Even though the violations were for the same contractor, they
are different contacts and often, if not always, different management teams. It is improper to reflect
this company-wide OSHA information since the events may not be related to NASA activities.

8. OIG Comment. The information previously discussed in the footnote has been placed in the
body of the report. We believe that it is proper to show company-wide OSHA information because
it is a reflection of the overall safety management practice of the particular NASA contractor. This
information should be reviewed and evaluated by NASA prior to contract award. The OSHA
information reflects that the company as a whole has a history of safety violations, indicating the need
for a thorough NASA review of the contractor's safety plan prior to contract award.

Management’s Comment. The OIG indicates that the Kennedy Chief Safety Officer stated that
two commercial item contracts should have had safety plans regardless of the type of acquisition. In
subsequent discussions, the Kennedy Chief Safety Officer indicated that he was unfamiliar with the
rules applicable to commercial acquisitions and that his comments were




                                                20
Appendix E

made simply on the basis that the commodity in question was a potentially hazardous item. He did
not have a problem with the absence of a safety plan on these contracts in consideration of these
circumstances.

9. OIG Comment. No change has been made to the report. The Chief Safety Officer was
concerned enough about the nature of these contracts to initially state to the audit team that the
contracts should have safety plans "regardless" of the type of acquisition. Kennedy personnel and
not the audit team conducted the subsequent discussions referred to by management.

Management Comment. We agree that the procedure for conducting surveillance of contracts
was not clearly explained, but evidence of independent reviews exists in the form of periodic
contractor evaluations provided to the Contracting Officer for award fee performance. We also
perform building inspections and participate in mishap investigations involving onsite contractors.
Marshall personnel who stated that safety was usually delegated to DCMC were either misinformed
or misunderstood by the auditor. Marshall also performs surveillance through periodic, documented
NASA Engineering Quality Audits at onsite contractor locations. These audit teams include safety
personnel.

10. OIG Comment. Participation in mishap investigations and input to award fee evaluations is not
the same as conducting surveillance of contractor operations. NHB 1700.1, Chapter 2, Section
202(c)(2), states that Safety Officials are responsible for:

                Conducting safety program reviews or technical evaluations of the
                contractor’s operation or product for safety, including compliance with safety
                provisions of the contract.


Section 209 further states:

                Field Installations are expected to have appropriate, adequate, and effective
                contractor safety and surveillance and evaluation programs.              The
                contractor’s approved safety programs, including actual performance and
                accident experience, will be evaluated during the initial stages of contract
                work to ensure early correction of deficiencies and, subsequently, will be
                evaluated at least annually throughout the life of the contract.


Marshall had no documented, auditable procedures for conducting any of the aforementioned
reviews. We acknowledge in the report that Marshall management stated that it performed some
contractor reviews. However, there was no record of these reviews which the report also notes.

Management’s Comment. The report states that by not including required safety clauses in the
contracts, contractors are not bound to safety requirements. This is not a true statement.




                                                   21
Appendix E

11. OIG Comments. The report has been revised to state that by not including required safety
clauses in the contracts, “the contractors are not contractually bound to the requirement for
compliance with all Federal, state, and local laws applicable to safety.”

Management’s Comment. We believe that the number of violations listed comes from the
Incident Reporting Information System and does not include those dropped or documented as
potential close calls. In addition, NASA safety officials queried the OSHA Web site and could not
reconcile to the OSHA violations cited in the report.

12. OIG Comment. We obtained the mishap information from NASA’s Incident Reporting
Information System maintained at each Center. We took into consideration mishaps that were
dropped or documented as potential close calls and determined that they should all be included. Just
because an incident was dropped from the system does not negate the fact that a mishap occurred
and could happen again. As stated in OIG Comment 3, close calls are included in NASA’s
definition of mishaps and should be included in the number of mishaps per contractor. We obtained
information on OSHA violations from OSHA’s Integrated Management Information System on the
World Wide Web.

Management Comments. The required safety plan for contract NAS10-98050 (shown in
Appendix C) was reviewed and concurred in by the safety office, and the documentation is in the
contract file.

13. OIG Comment. The appropriate NASA FAR Supplement safety clause and a safety plan
were included in the contract. Within the contract file, there was documented approval of the safety
plan by the Kennedy safety office on May 12, 1998. Also, the Contracting Officer’s Technical
Representative reviewed and signed off on the plan on May 14, 1998. We revised the report
accordingly.

Management Comment. Regarding contract NAS8-37716, the report (Appendix C) states that
"OSHA cited the contractor for one serious safety violation in 1994." However, OSHA cleared the
contractor of any blame for the cited incident.

14. OIG Comment. The OSHA inspection record does not support management’s statement that
the contractor was cleared by OSHA of any blame for the incident.

Management’s Comment. Regarding contract NAS8-37710, the report (Appendix C) states that
"OSHA cited the contractor for 10 serious safety violations in the last 5 years including 2 accidents;
1 resulted in an employee losing a finger." We are unable to verify the cited 10 violations.

15. OIG Comment. The OSHA Integrated Management Information System showed 10
violations in the last 5 years for this contractor.

Management’s Comment. For contract NAS8-38100, the report (Appendix C) states that
OSHA cited the contractor for five safety violations since 1994 including three accidents.



                                               22
Appendix E

There were only two OSHA violations/citations issued as a result of the 1994 accident. No
additional violations/citations were issued up to the time the OIG issued its report. However, it came
to our attention on April 13, 2000, that a recent OSHA inspection resulted in two minor citations.

16. OIG Comment. We have revised the report accordingly.

Management’s Comment. For contracts NAS8-97331 and NAS8-99057, the report (Appendix
C) states that the contracts did not contain the NASA FAR Supplement standard safety and health
clause. The NASA FAR Supplement safety and health clause is in both contracts.

17. OIG Comment. We found no evidence of the applicable safety and health clause in either
contract file.

Management’s Comment. For contracts NAS8-97331, NAS8-99057, NAS8-99053 and
NAS8-98053, the report (Appendix C) states that the contractor safety plans were submitted after
contract award. Construction procurements are fixed-price invitation for bid and safety plans are
approved after bid opening and prior to notice to proceed. No onsite work at Marshall occurs until
after the notice to proceed. For contract NAS8-98053, a waiver for providing the safety and health
plan with the offeror's proposal was obtained and is on file.

18. OIG Comment. The NASA FAR Supplement and NHB 1700.1 clearly state that contractor
safety plans should be reviewed before contract award. We question the effectiveness of reviewing
a safety plan after a contract is awarded. Also, we found no evidence of the aforementioned waiver
in the contract file for contract NAS8-98053.

Management’s Comment. For contract NAS8-97331, the report (Appendix C) states that there
was personal injury as a result of the contractor’s mishap. NASA recovered $30,000 for damages
due to improper removal of asbestos, but there were no injuries associated with this incident as
indicated by the OIG.

19. OIG Comment. We revised Appendix C of the report to show that there was no immediate
personal injury as a result of the mishap.

Management Comment. For contracts NAS8-99057 and NAS8-97331, the report (Appendix
C) states that there was no evidence of review and approval of the safety and health plan by the
Marshall safety office. For contract NAS8-99057, a safety and health plan was approved on
January 14, 1999. For contract NAS8-97331, a safety and health plan was approved on
December 29, 1998.

20. OIG Comment. We found no evidence of review of the safety plan by Marshall safety
personnel for either contract.




                                               23
Appendix E


Management’s Comment. For contract NAS8-99053, the report (Appendix C) states that
OSHA cited the contractor for five safety violations in the last 5 years. There have been no OSHA
violations on this contract, only one close call.

21. OIG Comment. OSHA’s Integrated Management Information System shows five safety
violations for this contractor since 1994.




                                             24
                           Appendix F. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AE/Chief Engineer
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Director, John C. Stennis Space Center




                                             25
Appendix F

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division,
 Office of Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
 Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                               26
                   NASA Assistant Inspector General for Auditing
                                  Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent with
our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Final Report on the Audit of Contract Safety Requirements at Kennedy Space
Center and Marshall Space Flight Center

Report Number:                                         Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                       Agree              l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically       5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit               5       4        3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

         Excellent                  Fair
         Very Good                  Poor
         Good

If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                     No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to this Report

Kevin J. Carson, Program Director, Safety and Technology Audits

Karl M. Allen, Auditor-in-Charge

Rebecca L. Andrade, Auditor

Eugene Bauer, Auditor

Nancy C. Cipolla, Report Process Manager

Iris Purcarey, Program Assistant
